No. 21-113

Sin tbe

bupreme Court of the Ziliniteb iptatei‘
UJ-EIGHTY CORPORATION,
PETITIONER
v.
CITY OF BLOOMINGTON BOARD OF ZONING APPEALS,
RESPONDENT
ON PETITION FOR A WRIT OF CERTIORARI
TO THE INDIANA SUPREME COURT
BRIEF OF FRATERNITY FORWARD COALITION AND FRATERNAL HOUSING ASSOCIATION AS AMICI CURIAE
SUPPORTING PETITIONER
DANIEL J. MCCARTHY
Counsel of Record
MCCARTHY LAW OFFICE
225 West Court Street,
Suite 300
Cincinnati, OH 45202
(513) 815-7006
mccarthy@danmccarthylaw.com

I
TABLE OF CONTENTS
TABLE OF AUTHORITIES

II

INTEREST OF AMICI CURIAE

1

INTRODUCTION AND SUMMARY OF
ARGUMENT

3

ARGUMENT

5

BLOOMINGTON'S ORDINANCE IMPROPERLY DELEGATED GOVERNMENTAL
AUTHORITY IN VIOLATION OF THE DUE
PROCESS CLAUSE OF THE FOURTEENTH AMENDMENT OF THE UNITED
STATES CONSTITUTION

5

THE DECISION WILL INTERFERE WITH
STUDENTS' ABILITY TO ASSOCIATE

7

DELEGATION OF ZONING AUTHORITY
ENDANGERS FRATERNAL CHAPTERS
NATIONWIDE
10
CONCLUSION

13

II

TABLE OF AUTHORITIES
Cases

Page(s)

425 Prop. Ass'n of Alpha Chi Rho, Inc. v. State Coll.
Borough Zoning Hearing Bd.,
223 A.3d 300 (Pa. Commw. Ct. 2019)

5

Barnard v. Zoning Board of Appeals of Yarmouth,
313 A.2d 741 (Me. 1974)

9

Christian Legal Soc'y Chapter of the Univ.
of Cal. Hastings Coll. of the Law v. Martinez,
561 U.S. 661 (2010)

9, 12

Eubank v. City of Richmond,
226 U.S. 137 (1912)

6

Healy v. James,
408 U.S. 169 (1972)

8

Milam v. Commonwealth,
483 S.W.3d 347 (2015)

11

Roberts v. United States Jaycees,
468 U.S. 609 (1984)

8

Shelton v. Tucker,
364 U.S. 479 (1960)

8

Sweezy v. New Hampshire,
355 U.S. 852 (1957)

8

Tinker v. Des Moines Cnty. Sch, Dist.,
393 U.S. 503 (1969)

8

III
Other Authorities
1 John Forrest Dillon, The Law of Municipal
Corporations x-60 (2d ed. 1873)

7

1 Eugene McQuillin, A Treatise on the Law of
Municipal Corporations § 382 (1911)
Thomas McIntyre Cooley & Victor Hugo Lane, A

Treatise on the Constitutional Limitations Which Rest
Upon the Legislative Power of the States of the
American Union 293 (7th ed. 1903)

7

William R. Baird, Jack L. Anson, & Robert F.

Marchesani, Baird's Manual of American College
Fraternities § 1-10, (20th ed. 1991)

3

(
1
INTEREST OF AMICI CURIAE'
The Fraternity Forward Coalition ("FFC") is an
unincorporated association, based in Indiana, that
promotes the shared positive values of fraternal life,
encourages safe and healthy behaviors among its
undergraduate members, and advocates for student and
fraternal organization rights. FFC is comprised of five
international fraternal organizations: Alpha Epsilon Pi,
Alpha Sigma Phi, Alpha Tau Omega, Kappa Alpha Order,
and Theta Chi. The individual member organizations of
FFC represent more than 43,000 undergraduate members
in 775 chapters with nearly 600,000 living alumni members.
The founding principle goals of FFC include:
Guaranteeing that students' fundamental
constitutional right of free assembly is not
violated or threatened.
Working to strengthen understanding of host
university conduct policies and ensuring that
said policies provide due process, fundamental
fairness, equality, and proportional discipline.
Educating college administrators about the
importance of fraternity membership in terms

1 As required by Supreme Court rules 37.3 and 37.6, counsel for
amici curiae state that no counsel for a party authored this brief in
whole or in part, and no party or counsel for a party, or any other
person other than amici curiae or its counsel, made a monetary contribution intended to fund the preparation or submission of this brief.
All parties to this appeal have consented in writing to the filing of this
brief.

2
of student engagement, happiness, retention,
and academic success.
Where and when possible, FFC members seek to
collaborate with host institutions through official
recognition status. But it is sometimes necessary for a
chapter to exist without official university recognition. FFC
supports higher education by promoting self-determination
through fraternal structure and operations and firmly
believes that is possible, and often necessary, without
official recognition.
The Fraternal Housing Association ("FHA!') is
a 501(c)(6) nonprofit corporation located in Indiana. FHA
membership is open to all individuals, fraternal
organizations, and vendors that work with fraternal
housing. Its mission is to promote and advocate for
fraternity housing through organized collaborative efforts
of its members. FHA represents the interests of the largest
source of affordable student housing in the nation with over
$3 billion in assets deployed as nonprofit and education
focused housing and food service facilities. These facilities
house over 250,000 students, serve millions of meals, and
provide educational space and programming to over
500,000 students each year.
FHA members and member organizations work
diligently to foster safe and supportive educational
housing. They work closely with governmental entities to
maintain legal compliance and often work with nongovernmental community stakeholders such as
neighborhood associations, local clubs, and universities.
However, individual students and organizations that reside
in FHA fraternal-oriented facilities may choose to associate
or organize with or without university recognition.
If not reversed, the decision of the Indiana Supreme
Court will endanger the economic viability of fraternity and
sorority houses across the nation, will harm property
owners, will threaten students' associational interests, and

3
will serve as a blueprint for municipalities and universities
to use zoning regulations as a means to destroy fraternity
chapters, organizations and privately held nonprofit
housing options for students.
INTRODUCTION AND SUMMARY OF ARGUMENT
On December 5, 1776, a group of students at William
and Mary College formed the first collegiate fraternity in
the United States. William R. Baird, Jack L. Anson, &
Robert F. Marchesani, Baird's Manual of American College
Fraternities § I-10, (20th ed. 1991). Fraternities and
sororities,2 including the members of FFC, have played a
vital role on college campuses since that time, helping to
develop well-rounded, intellectually-curious, and
community-minded students.
Despite this long history of positive contributions to
student life and college campuses, some cities and
campuses seek to end fraternities as they have existed for
centuries. The use of zoning codes is but the most recent
means to eliminate chapters by devaluing chapter houses.
This case asks whether a municipality can delegate
zoning authority to a local university that is also a
neighboring landowner and economic competitor for
student housing. On this critical question of due process
rights, Amici agrees with and endorses the legal
arguments set forth in U-J Eighty Corporation's Petition
for a Writ of Certiorari. It is a well-established and
entrenched principle that the Due Process Clause prohibits
the sort of delegation of authority that Bloomington
granted to Indiana University. An increasing number of
2 The arguments in this brief apply to both fraternities and sororities. For brevity and because the members of FFC are all malemember fraternities, this brief will refer to fraternities.

4
other municipalities across the country are likewise
delegating zoning authority to schools to define "fraternity
house" for zoning purposes. The Court should end this
national trend and reaffirm that such delegation violates
the Due Process Clause.
These restrictive zoning codes also directly interfere
with and limit the ability of students to freely associate.
Zoning regulations cannot be used as a means to limit
students' ability to associate together or to advance an
agenda to eliminate fraternal organizations.
Forcing the closure of chapter houses through
restrictive and arbitrary zoning regulations will cause
immediate and irreparable harm to fraternity chapters and
undergraduate students across the nation.
The need for quality housing is a must for a
fraternity's growth, development, and success. Housing is a
vital part of the fraternal experience. Fraternity chapter
houses are often large, unique structures that cannot be
easily adapted to other uses. Chapter house sizes vary
greatly from chapter to chapter and campus to campus, but
can often house anywhere from 50 to well over 100
students.
As a result, zoning codes that require university
recognition for a fraternity use jeopardizes thousands of
properties across the country that house hundreds of
thousands of students worth billions of dollars.
If a university, as a competitor for student housing, is
allowed to control the zoning for fraternity housing, it will
destabilize and ultimately destroy fraternity housing.

5
ARGUMENT
I. BLOOMINGTON'S
ORDINANCE
IMPROPERLY
DELEGATED
GOVERNMENTAL AUTHORITY IN
VIOLATION OF THE DUE PROCESS
CLAUSE OF THE FOURTEENTH
AMENDMENT OF THE UNITED STATES
CONSTITUTION
With no procedure for City review or approval,
Bloomington Unified Development Ordinance § 20.11.020
delegated the ability to determine whether a property
owner complied with the city's zoning requirements to
Indiana University ("IU"). In order to qualify as a
"Fraternity/Sorority House," IU had to bless the fraternity
with official university recognition status. Bloomington
retained no discretion or authority on the question of
whether a group could qualify as a "Fraternity/Sorority"
use if the group lacked recognition from IU. This is a clear
delegation of Bloomington's zoning authority to IU.
Bloomington's zoning delegation is substantially
similar to the one in 425 Prop. Ass'n of Alpha Chi Rho, Inc.
v. State Coll. Borough Zoning Hearing Bd., 223 A.3d 300
(Pa. Commw. Ct. 2019). In that case, state College Borough
delegated zoning authority to Penn State University.
Specifically, only "members of a University recognized
fraternity or sorority" qualified as a "Fraternity House"
under the Borough's zoning code. The Pennsylvania Court
of Appeals noted, "that the Borough has unconstitutionally
delegated its authority to determine the existence of a
`Fraternity House' under the Zoning Code." Id. at 313, n.9.
The principle that a municipality cannot delegate
zoning authority, especially to a neighboring property
owner and economic competitor, is well-established for a
reason:

6
To give a neighboring real estate owner
an uncontrollable right to object may...be
given him the whip hand over the applicant
for a license; and it will depend entirely upon
the character of him who holds that whip,
whether this instrument of castigation be
used for the owner's protection or be applied
in securing unjust booty.... But when you
give the absolute right to object, you have put
into the hands of men an irresistible weapon.
Argument of Louis D. Brandeis, on behalf of
the Massachusetts Protective Liquor
Dealers' Ass'n, before the Joint Comm. on
Liquor Law of the Massachusetts
Legislature, Feb. 27, 1891, reprinted in 1
Hearings on the Nomination of Louis D.
Brandeis Before a Subcomm. of the Senante
Comm. on the Judiciary 1057, 1065 (1916).
As far back as 1912, this Court held that an ordinance
that allowed the owners of two thirds of the property
abutting a street to establish a "building line" beyond
which construction was not permitted was a violation of due
process. Eubank v. City of Richmond, 226 U.S. 137, 143-44
(1912). The Court explained its ruling,
The statute and ordinance, while
conferring the power on some property
holders to virtually control and dispose of the
property rights of others, creates no
standard by which the power thus given is to
be exercised; in other words, the property
holders who desire and have the authority to
establish the line may do so solely for their
own interest, or even capriciously.... Id. At
143

7
The leading treatises from early American law further
support that the Due Process Clause prohibits the type of
delegation present in this case. "The principle is a plain
one that the public powers or trusts devolved by law or
charter upon a council or governing body, to be exercised
by it when and in such manner as it shall judge best, cannot
be delegated to others." 1 John Forrest Dillon, The Law of
Municipal Corporations § 60 (2d ed. 1873). "The principle
is fundamental and of universal application that public
powers conferred upon a municipal corporation and its
officers or agents cannot be surrendered or delegated to
others." 1 Eugene McQuillin, A Treatise on the Law of
Municipal Corporations § 382 (1911). "So far as its
functions are legislative, they rest in the discretion and
judgment of the municipal body entrusted with them, and
that body cannot refer the exercise of the power to the
discretion and judgment of its subordinates or of any other
authority." Thomas McIntyre Cooley & Victor Hugo Lane,
A Treatise on the Constitutional Limitations Which Rest
Upon the Legislative Power of the States of the American
Union 293 (7th ed. 1903).
Amici fully support and endorse U-J Eighty's legal
arguments that Bloomington's delegation of zoning
authority violated the Due Process Clause. Bloomington
gave IU the absolute right to object and control the zoning
for neighboring and competing properties. Accordingly, the
Court should accept this case and reverse the decision of
the Indiana Supreme Court.
II.

THE DECISION WILL INTERFERE WITH
STUDENTS' ABILITY TO ASSOCIATE

There can be no dispute that students retain their
constitutional rights. "It can hardly be argued that either
students or teachers shed their constitutional rights... at

8
the school house gate." Tinker v. Des Moines Cnty. Sch,
Dist., 393 U.S. 503, 506 (1969). This Court has long
recognized the need of "vigilant protection" of such rights.
The Court has repeatedly affirmed that the college campus
has a unique role as "peculiarly the 'marketplace of ideas?"
Healy v. James, 408 U.S. 169, 180 (1972) (citation omitted).
"Scholarship cannot flourish in an atmosphere of suspicion
and distrust. Teachers and students must always remain
free to inquire, to study and to evaluate, to gain new
maturity and understanding; otherwise, our civilization will
stagnate and die." Sweezy v. New Hampshire, 355 U.S. 852
(1957). "The vigilant protection of constitutional freedom is
nowhere more vital than in the community of American
schools." Shelton v. Tucker, 364 U.S. 479 (1960).
One such right that must be protected is the right of
students to freely associate. The Court has recognized that
there are two kinds of freedom of association: intimate and
expressive association. Roberts v. United States Jaycees,
468 U.S. 609 (1984).
In one line of decisions, the Court has
concluded that choices to enter into and
maintain certain intimate human
relationships must be secured against undue
intrusion by the State because of the role of
such relationships in safeguarding the
individual freedom that is central to our
constitutional scheme.
In this respect,
freedom of association receives protection as
a fundamental element of personal liberty.
In another set of decisions, the Court has
recognized a right to associate for the
purpose of engaging in those activities
protected by the First Amendment-speech,
assembly, petition for the redress of
grievances, and the exercise of religion. The
Constitution guarantees freedom of

9
association of this kind as an indispensable
means of preserving other individual
liberties. Id. at 617-18.
While a college may regulate student groups that
receive official recognition, "[p]rivate groups, from
fraternities and sororities to social clubs and secret
societies, commonly maintain a presence at universities
without official school affiliation." Christian Legal Soc'y
Chapter of the Univ. of Cal. Hastings Coll. of the Law v.
Martinez, 561 U.S. 661, 690-91 (2010).
What Bloomington and IU are doing here, and other
municipalities and colleges are doing throughout the
United States, is using zoning to interfere with the rights of
students to freely associate. This is an impermissible use of
zoning authority. The Maine Supreme Judicial Court
warned of such abuses:
[W]e are mindful that zoning has been
used frequently for ends which while
ostensibly within the traditional objectives of
zoning—protection of health, safety, morals
and general welfare—are in fact unrelated to
those purposes.... Recognizing this potential
for abuse inhering in the zoning power, both
federal and state courts have in recent years
ordered modifications in zoning plans on
equal protection and due process grounds.
Barnard v. Zoning Board of Appeals of
Yarmouth, 313 A.2d 741, 745 (Me. 1974).
Zoning regulations cannot be used as a subterfuge to
violate the rights of students to freely associate. Linking
zoning approval to a university's unlimited, unreviewable
discretion to determine which groups to bestow official
recognition violates the Due Process Clause.

10
III. DELEGATION OF ZONING AUTHORITY
ENDANGERS FRATERNAL CHAPTERS
NATIONWIDE
The member organizations that comprise FFC
collectively have approximately 775 fraternity chapters.
The members of FHA collectively own chapter houses
worth over 83 billion and that house over 250,000 students.
All privately owned fraternity houses are at risk if a college
is permitted to arbitrarily eliminate chapter houses
through zoning regulations. Not only would this devastate
the members of FFC, FHA, and other fraternal
organizations, this would also drive up the costs of student
housing by eliminating competition' at a time when room
and board outweigh tuition costs at most public
universities.
While ownership of chapter houses varies (some
chapter houses are owned by house corporations; others
are rented from third-party landlords; and some are
university owned), most houses are owned by local house
corporations, not the national fraternal organizations. The
physical chapter house is typically the only asset of a house
corporation.
One universal truth is that housing is a vital part of the
fraternal experience. Fraternity houses provide a clean and
safe environment for living, learning, and growing, often at
a lower cost to students than university-owned housing.
The goal is provide a home away from home for students to
more closely connect with other fraternity members.
While fraternity chapters and universities compete in the student
housing market, it is far from a level field. Universities have far
greater resources and far better access to students. Importantly, the
current tax code does not allow fraternities and other not-for-profit
student organizations to use tax-deductible donations for housing improvements in the same way the universities can.

11
Fraternity houses provide an opportunity for students to
live and learn together and are often the first residential
experience where students are responsible for signing a
lease, paying rent, cleaning up after themselves, and
maintaining the property.
Chapter houses are also unique from other student
housing options. Fraternity houses are located on or near
college campuses and are designed for communal living.
They are uniquely designed to serve an undergraduate
fraternity chapter and cannot easily be transformed into
another use. Because of the unique location and
configuration, a fraternity chapter house is unusable for
any other private purpose. A house with a community
kitchen, community bathrooms, and 20+ bedrooms cannot
simply be transformed into a single-family residence or
even an apartment building. See Milam v. Commonwealth,
483 S.W.3d 347, 350 (holding that a fraternity house is
considered a private residence for Fourth Amendment
purposes and is not akin to an apartment building or hotel).
Losing the ability to use chapter houses as fraternity
housing would destroy all value of these properties and
would ruin thousands of house corporations.
Further, stability is crucial. A chapter must be able to
show students that its ability to exist will not be eliminated
at the whims of a university. Stability is necessary for
recruitment of new members to maintain the chapter and
fill the house with students. The threat of a forced eviction
during the middle of a semester due to a loss of zoning
compliance will interfere with recruitment and retention of
new members.
Leases for student housing in chapter houses are
cyclical on either a school year or semester basis. If a
chapter loses recognition mid-semester, the house
corporation or property owner cannot simply pivot to
another use under the zoning code and continue on in an
economically-viable manner.

12
Stability is also necessary for financial purposes. For
example, loans for new construction, renovations, additions,
and remodeling projects would be considered too great of a
risk if the zoning was subject to a college's arbitrary
decision of whether to bestow official recognition to a
fraternity chapter. Zoning restrictions like the one in this
case will render financing for acquisition and improvements
impossible.
The members of FFC strive to develop strong
relationships and work cooperatively with university
administrators. However, some chapters of FFC members,
while affiliated with a national fraternal organization,
operate without university recognition. This is consistent
with the Court's statement in Christian Legal Soc'y that
fraternities "commonly maintain a presence at universities
without official school affiliation." Christian Legal Soc'y,
561 U.S. at 690-91.
Together, the members of FFC have approximately
fifty chapters that exist without university recognition. The
continued existence of those fifty chapters would be put at
immediate risk if the decision below is allowed to stand.
Further, municipalities and universities would be
emboldened to follow the lead of Bloomington and IU and
to restrict the ability of chapters to exist without university
recognition.
Ultimately, all fraternity and sorority chapter houses
are at risk if the decision from the Indiana Supreme Court
is upheld. Colleges must be prevented from using zoning
regulations to eliminate fraternal organizations that have
existed and thrived for centuries.

13
CONCLUSION
The petition for a writ of certiorari should be granted
and the decision from the Indiana Supreme Court reversed.
Respectfully submitted,
DANIEL J. MCCARTHY
Counsel of Record
MCCARTHY LAW OFFICE
225 West Court Street,
Suite 300
Cincinnati, OH 45202
(513) 815-7006
mccarthy@danmccarthylaw.com

